<html>
<title> - DUPLICATION AND INEFFICIENCIES IN FEDERAL SOCIAL WELFARE PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
   DUPLICATION AND INEFFICIENCIES IN FEDERAL SOCIAL WELFARE PROGRAMS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON REGULATORY AFFAIRS,
               STIMULUS OVERSIGHT AND GOVERNMENT SPENDING

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 1, 2011

                               __________

                           Serial No. 112-57

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
70-677                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c1a6b1ae81a2b4b2b5a9a4adb1efa2aeacef">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Regulatory Affairs, Stimulus Oversight and Government 
                                Spending

                       JIM JORDAN, Ohio, Chairman
ANN MARIE BUERKLE, New York, Vice    DENNIS J. KUCINICH, Ohio, Ranking 
    Chairwoman                           Minority Member
CONNIE MACK, Florida                 JIM COOPER, Tennessee
RAUL R. LABRADOR, Idaho              JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          BRUCE L. BRALEY, Iowa
FRANK C. GUINTA, New Hampshire
MIKE KELLY, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 1, 2011.....................................     1
Statement of:
    Dalton, Patricia, Chief Operating Officer, Government 
      Accountability Office; Robert Rector, senior research 
      fellow, the Heritage Foundation; John Mashburn, executive 
      director, the Carleson Center for Public Policy; and Lisa 
      Hamler-Fugitt, executive director, Ohio Association of 
      Second Harvest Foodbanks...................................    13
        Dalton, Patricia.........................................    13
        Hamler-Fugitt, Lisa......................................    77
        Mashburn, John...........................................    60
        Rector, Robert...........................................    46
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    11
    Dalton, Patricia, Chief Operating Officer, Government 
      Accountability Office, prepared statement of...............    16
    Hamler-Fugitt, Lisa, executive director, Ohio Association of 
      Second Harvest Foodbanks, prepared statement of............    79
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio, prepared statement of.............................     3
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Map of Ohio..............................................    96
        Prepared statement of....................................     7
        Supplemental prepared statement of.......................   112
    Mashburn, John, executive director, the Carleson Center for 
      Public Policy, prepared statement of.......................    62
    Rector, Robert, senior research fellow, the Heritage 
      Foundation, prepared statement of..........................    48


   DUPLICATION AND INEFFICIENCIES IN FEDERAL SOCIAL WELFARE PROGRAMS

                              ----------                              


                        WEDNESDAY, JUNE 1, 2011

                  House of Representatives,
      Subcommittee on Regulatory Affairs, Stimulus 
                 Oversight and Government Spending,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m. in 
room 2154, Rayburn House Office Building, Hon. Jim Jordan 
(chairman of the subcommittee) presiding.
    Present: Representatives Jordan, Buerkle, Cummings and 
Kucinich.
    Staff present: Gwen D'Luzansky, assistant clerk; 
Christopher Hixon, deputy chief counsel, oversight; Mark D. 
Marin, senior professional staff member; Michael Whatley, 
professional staff member; Jaron Bourke, minority director of 
administration; and Claire Coleman and Carlos Uriarte, minority 
counsels.
    Mr. Jordan. I think we will go ahead and get started. I 
might get finished with my opening statement. Hopefully, 
Ranking Member Kucinich will be able to join us.
    Let me thank you all for coming to this hearing on 
duplication, overlap and inefficiencies in the Federal welfare 
programs. I will start with an opening statement and hopefully, 
Mr. Kucinich will be here. As I speak, he walks in. It is great 
to have you with us.
    In March, the Government Accountability Office released its 
first annual report on duplicative and fractured Federal 
spending. The report estimated that conservatively, $100 
billion could be saved each year by eliminating duplication, 
overlap and fragmentation in numerous Federal programs.
    Congress considers the Federal budget on an agency by 
agency or program by program basis. The GAO report was the 
first attempt at a comprehensive view of Federal spending by 
function.
    Today, in what will likely be the first of a series of 
hearings, the subcommittee will begin taking a more focused 
look at GAO's findings, starting with the area of social 
welfare programs.
    Since Lyndon Johnson declared war on poverty in 1964, 
Americans have spent $16 trillion on welfare at the State and 
Federal level. Under current administration plans, $10 trillion 
more will be spent over the next decade. How much of that 
spending will be wasted on duplicative programs, each with 
their own overhead, IT budgets, bureaucracy and advertising 
budgets. How much of that spending will be wasted on a program 
that fails to help the people it is designed to help, the 
targeted population while a different program with an identical 
mission may be succeeding with less money.
    GAO found that the Federal Government spent more than $90 
billion on 18 different domestic food and nutrition assistance 
programs, more than $18 billion on 47 different programs 
providing employment and training and $3 billion on 20 
different homelessness programs. The Federal Government also 
currently funds 80 programs in 8 different agencies to provide 
transportation services to ``transportation disadvantaged 
persons.''
    While GAO was unable to figure out exactly how much these 
80 programs cost the American taxpayers, it was able to 
determine that a small subset of them totaled $2 billion 
annually. GAO has also concluded that not enough is known about 
the effectiveness of many of these programs.
    For example, they found that only 7 of 18 Federal food 
assistance programs had been associated with positive health 
and nutrition outcomes, while the remaining 11 have not been 
effective. The President signaled his intent to address Federal 
program duplication in his State of the Union Address where he 
stated ``We shouldn't just give our people a government that is 
more affordable, we should give them a government that is more 
competent and more efficient.'' The American people would 
certainly agree with that.
    Two weeks later, the President addressed the U.S. Chamber 
of Commerce reiterating his plan to address duplicative 
programs, ``So, in the coming months, my administration will 
develop a proposal to merge, consolidate and reorganize the 
Federal Government in a way that best serves the goal of a more 
competitive America.'' I hope the administration is serious 
about duplication and waste.
    More than a month ago, I invited the White House Office of 
Management and Budget to participate in today's hearing. 
Unfortunately, as was the case with the previous full committee 
hearing on GAO's duplicative programs report, the White House 
of Management and Budget has refused to engage with this 
committee on meaningful oversight of wasteful Federal spending. 
I think it is amazing, the Office of Management and Budget 
refuses to come talk to this committee about the management of 
the 70-some different means-tested social welfare programs.
    The American taxpayers deserve better than our current 
system provides. They deserve a budget system in which all 
programs providing in aid can be viewed in full, easily tracked 
and evaluated for effectiveness and efficiency. They deserve a 
welfare system whose goals actually help people quickly reach 
the point where they no longer need it and provide for 
themselves, one in which multiple departments and multiple 
agencies manage programs that waste money through overlap and 
inefficiency.
    I appreciate the willingness of our witnesses to join us 
today for what I think is a very important hearing in these 
crucial fiscal times when we are trying to help the very people 
in this tough economy who want to be helped.
    With that, I will yield to my good friend, the ranking 
member, Mr. Kucinich.
    [The prepared statement of Hon. Jim Jordan follows:]

    [GRAPHIC] [TIFF OMITTED] T0677.001
    
    [GRAPHIC] [TIFF OMITTED] T0677.002
    
    Mr. Kucinich. Mr. Chairman, thank you very much for calling 
this hearing.
    I want to thank the witnesses for their presence.
    Today's hearing addresses a recently issued Government 
Accountability Office report that focused on duplicative 
Federal programs and highlighted opportunities to potentially 
enhance Federal revenues by reducing inefficiencies and 
overlap. In a 339-page report, GAO devoted just 18 pages to 
addressing opportunities that may exist for reducing costs and 
improving efficiencies of certain Federal programs, most 
notably food assistance programs and job training programs. In 
both the continuing resolution votes as well as other budget 
proposals, these programs, in particular, were targeted for 
severe cuts.
    GAO's findings are valuable as long as they are not 
misunderstood. GAO recommended streamlining, the administration 
of multiple programs delivering comparable benefits to similar, 
overlapping populations. Reducing administrative inefficiencies 
in Federal welfare programs is an important goal that we should 
work together to address, but GAO did not find waste, fraud or 
abuse in administration and delivery of these programs. GAO 
does not recommend delivering fewer benefits to those in need.
    In the aftermath of the most economically destructive 
recession since the Great Depression, poverty has been on the 
rise. According to the Food Research and Action Center, nearly 
1 in 5 Americans struggled to afford enough food for themselves 
and their families in 2010. In Ohio, my home State, there were 
1.7 million people living in poverty in 2009, many remaining in 
poverty even though they work full time year round.
    As Lisa Hamler-Fugitt, executive director of the Ohio 
Association of Second Harvest Foodbanks, who is testifying 
before us today, will confirm, in the State of Ohio the level 
of food insecurity is greater than 13 percent, the highest 
level in a generation. This statistic alone shows how dire the 
need is and how critical Federal food assistance programs are 
in Ohio and nationwide. Our economy is showing positive signs 
of improvement but unemployment is still at 9 percent. It is 
certainly no time to be pulling the plug on food assistance 
programs.
    Mr. Chairman, I had a visit from Ms. Hamler-Fugitt and she 
gave me these plates which are filled out by people who are 
participating in one of the food programs. In my remaining 
time, I just want to give these individuals for their voice to 
be heard.
    ``To whom it may concern, the Hunger Center to me is like a 
Godsend. Without the Food Center, I don't know how I would 
survive every month. Food stamps don't make it each month. 
Thank you for your support.''
    Another one says, ``I would like thank God for Avon Baptist 
Church. God is good and I am thankful for Avon Baptist Church 
helping me and my grandchildren at a time of need.'' ``The Food 
Center has been so good to me and my family and my 
grandchildren. Time is hard and I thank God for the Center.'' 
``The Food Pantry helped me and my kids have food and some days 
I don't know what me and my kids would have done without the 
Center. The Center really helps people and their kids.''
    Again, this is about the Avon Baptist Church. ``The Food 
Bank has been an enormous helping hand to my family and I 
greatly appreciate the three course meals that lasts us all 
month. It is only by the grace of God that my family and I have 
been fed when we have no money at all. The volunteers at the 
Food Bank have helped this community the best way they can and 
they will be blessed. Thank you.''
    ``Thank you, Avon for providing nutrition for my family. 
May God continue to bless you. Through the hard times, I am 
able to get food and clothing here at Avon and also smiles with 
good people who really care. I don't know what I would do 
without their help. God bless'' and finally, ``Helped me to 
feed my family, great help to make it through the month. They 
give good food that you can make meals.''
    Mr. Chairman, I would ask, with your indulgence, if I could 
put this into the record, signed by people, and maybe it could 
be transcribed so that these voices of people who are affected 
by this program have a chance to be heard.
    Mr. Jordan. Certainly. Without objection.
    [Note.--The information referred to may be found in 
subcommittee files.]
    Mr. Kucinich. Thank you, Mr. Chairman. I really appreciate 
that.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T0677.003

[GRAPHIC] [TIFF OMITTED] T0677.004

    Mr. Jordan. I just want to echo too that I have had the 
opportunity to visit one of the Second Harvest Food Bank 
centers and do appreciate the work they do. The whole focus of 
this hearing is to look to do things more efficiently and more 
effectively to help the very people you were just quoting.
    Mr. Kucinich. If I can, Mr. Chairman, I have tremendous 
confidence in your compassion and your quality of heart and I 
just wanted to make sure that while we were here discussing 
this, that these individuals had a chance to be heard.
    Mr. Jordan. Mr. Cummings, I am going to recognize Ms. 
Buerkle for a quick statement and then we will go to you and 
hopefully we can get in our witness testimony before we have to 
run to vote.
    Ms. Buerkle. Thank you, Mr. Chairman. Thank you for calling 
this hearing today.
    When the GAO published its report in March on duplication 
in government services, I was very concerned that we were 
wasting taxpayer dollars, so I am glad that the committee is 
digging into these issues. I think we walk a fine balance. 
There is no one who doesn't understand the need for these 
services, but we owe it to the American people to make sure 
there is an effective and efficient use of those dollars we are 
using for the programs. The report covered a very broad range 
of programs, so we are going to focus on some of those today.
    That report stated that the Federal Government spent over 
$62 billion on 18 different domestic food and nutrition 
programs for low income individuals in fiscal year 2008. The 
GAO report stated these programs showed signs of overlap and 
inefficient use of resources. It also mentioned we fund 47 
different programs across multiple agencies to provide 
employment and training service to help the unemployed get 
jobs.
    With trillion dollar deficits, we cannot let this continue. 
We need to find the programs that work so that they work 
efficiently, effectively and reach the people who need their 
help. We need to end this duplication and waste and find ways 
to get people into private sector jobs which really gives 
people back their dignity.
    I look forward to the opportunity of hearing from all of 
our witnesses today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Jordan. I thank the gentlelady from New York.
    I now recognize the gentleman from Maryland.
    Mr. Cummings. Thank you, Mr. Chairman. I appreciate your 
courtesy.
    In February, the Government Accountability Office issued a 
339-page report on potential duplication in Federal programs. 
They described areas of overlap in several major programs 
including Defense, Agriculture, Energy and Homeland Security. 
The decided to focus today's hearing on a tiny subset of these 
programs that help some of the poorest and most vulnerable 
people in our society, those in need of food, housing, 
transportation and job training.
    The is targeting these same programs for significant cuts 
in their 2012 budget proposals. The Center on Budget and Policy 
estimates that two-thirds of the Republican budget's 
programmatic spending cuts are to programs that serve people of 
limited means. That is $2.9 trillion of a total of $4.3 
trillion.
    The fact that low income assistance is being targeted in 
this way is especially troubling given the Republican ultimatum 
last year to force the extension of all President Bush's tax 
cuts for the Nation's wealthiest individuals. It is even more 
troubling in light of their recent efforts to protect lucrative 
tax breaks for oil companies making record profits.
    Americans across the country are struggling to overcome the 
impact of the worst financial crisis since the Great 
Depression. According to an October 2010 report issued by the 
Congressional Research Service, 3.7 million more people fell 
below the poverty line in 2009 compared to 2008. These 3.7 
million people were pushed into poverty by a recession they did 
not create. In 2009, a total of 43.6 million people had incomes 
below the poverty line here in America, more than at any time 
since we began tracking this measure in 1959.
    The increase in poverty in America has been accompanied by 
increased hunger. In fact, in its report in February, the GAO 
found that in 2008, nearly 17 million households experienced 
insecurity in food, meaning they had limited access to food 
during some part of the year. In my hometown of Baltimore, 40 
miles from here, 13.3 percent of families with children fall 
into this unfortunate category. These are horrible statistics, 
but they are the benchmarks against which we measure our 
success as a society.
    I believe with all my heart that our Nation is better than 
this. We can do better and we must do better. Of course we must 
strive to eliminate unnecessary duplication and streamline the 
delivery of benefits. There is no one on this side of the aisle 
or the other side of the aisle who would disagree with that.
    I hope the Republican idea of duplicative food assistance 
programs is not breakfast, lunch and dinner. We must be clear 
about our priorities, insuring that every hungry child is 
adequately fed, that every sick person has access to medical 
care, and that every family has a safe place to live. This is 
the American way.
    These efforts not only help our fellow Americans get back 
on their feet, but they insure that our next generation is 
ready to compete and succeed. The future of our country is in 
their hands. Mr. Chairman, protecting the poor should not be a 
partisan issue. In his most recent State of the Union Address, 
President Obama called for an end to unnecessary duplication in 
government programs. I wholeheartedly agree with that.
    He also established an initiative called Government Reform 
for Competitiveness and Innovation and he included several 
program cuts in his budget to help eliminate waste. I applaud 
the President's leadership and I strongly support steps to help 
streamline government and make it more effective and efficient 
for the American people.
    I hope we can work together in a bi-partisan way to improve 
rather than eliminate services to those struggling to meet the 
most basic needs of life.
    With that, Mr. Chairman, again, I thank you for your 
courtesy and I yield.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0677.005

[GRAPHIC] [TIFF OMITTED] T0677.006

    Mr. Jordan. Thank you.
    We will now have our witnesses proceed.
    First, we are pleased to have Ms. Patricia Dalton, Chief 
Operating Officer of the Government Accountability Office. 
Thank you for your good work on the report. We also have Mr. 
Robert Rector, senior research fellow, the Heritage Foundation, 
and an expert on social welfare spending and reform. We have 
Mr. John Mashburn, executive director, the Carleson Center for 
Public Policy. As my colleague mentioned earlier, we have Ms. 
Lisa Hamler-Fugitt, executive director from the Ohio 
Association of Second Harvest Foodbanks.
    Pursuant to committee rule, all witnesses must be sworn 
before they testify. Please rise and answer in the affirmative 
after I read. Please raise your right hands.
    [Witnesses sworn.]
    Mr. Jordan. Let the record reflect that the witnesses 
answered in the affirmative.
    We will now go right down the row. We allow 5 minutes. You 
get the yellow light when it is time to start getting ready to 
finish.
    Ms. Dalton, you are recognized.

    STATEMENTS OF PATRICIA DALTON, CHIEF OPERATING OFFICER, 
    GOVERNMENT ACCOUNTABILITY OFFICE; ROBERT RECTOR, SENIOR 
   RESEARCH FELLOW, THE HERITAGE FOUNDATION; JOHN MASHBURN, 
EXECUTIVE DIRECTOR, THE CARLESON CENTER FOR PUBLIC POLICY; AND 
  LISA HAMLER-FUGITT, EXECUTIVE DIRECTOR, OHIO ASSOCIATION OF 
                    SECOND HARVEST FOODBANKS

                  STATEMENT OF PATRICIA DALTON

    Ms. Dalton. Thank you, Mr. Chairman, Ranking Member 
Kucinich, and Ms. Buerkle. Thank you for the opportunity to 
discuss GAO's first annual report on duplication in the Federal 
Government.
    Our report listed 34 areas where there is potential 
overlap, fragmentation or duplication. Overlap and 
fragmentation can be harbingers of unnecessary duplication. We 
also identified in the report 47 other areas of potential cost 
savings or revenue enhancement. Reducing or eliminating 
government duplication, overlap and fragmentation could 
potentially save billions of tax dollars annually and help 
agencies provide more efficient and effective services.
    The current situation of multiple and overlapping programs 
evolved over decades. Difficult decisions and sustained 
attention by the administration and the Congress will be 
required to determine what programs are needed now. This will 
be complicated by the fact that data showing the effectiveness 
or lack thereof in current programs is often nonexistent or 
insufficient. In addition, in some cases, we don't know exactly 
what we are spending. Today, I will focus on four areas in our 
report of programs that provide assistance with food, 
employment and training, homelessness and transportation.
    First, the Federal Government spends more than $90 billion 
on domestic food assistance provided primarily through 18 
different Federal programs. The Departments of Agriculture, 
HHS, Homeland Security and multiple State and local governments 
work to administer a complex network of programs.
    Some of these programs provide similar services to the same 
population. For example, six different USDA programs provide 
food to eligible children in settings outside their homes such 
as schools, day care and summer camps. While having multiple 
programs helps ensure that those in need have access to food, 
it also increases administrative costs. Complicating any 
decisions about streamlining food assistance programs is the 
fact that little is known about the effectiveness of 11 of the 
18 programs.
    In fiscal year 2009, 47 programs spent about $18 billion on 
employment and training services. Of these 47, 44 overlap with 
at least one other program in that they provided at least one 
similar service to a similar population. For example, three of 
the largest programs provide job search assistance. Nearly all 
programs track outcome information but only 5 of the 47 GAO 
identified have conducted an impact study to determine whether 
the program is actually responsible for improved employment 
outcomes.
    GAO has previously recommended to Labor and HHS that those 
agencies work together to develop and disseminate information 
that could inform State efforts to increase administrative 
efficiencies and examine the incentives for States and 
localities to undertake such efforts.
    In 2009, Federal agencies spent about $2.9 billion on over 
20 programs targeted to address the various needs of persons 
experiencing homelessness. In some cases, different agencies 
may be offering similar types of services to similar 
populations. For example, at least seven Federal agencies 
administer programs to provide some type of shelter or housing 
assistance to persons experiencing homelessness. This 
fragmentation can create difficulties for people accessing 
services and administrative burdens for providers who must 
navigate various application requirements, selection criteria 
and reporting requirements.
    The U.S. Interagency Council on Homelessness has provided a 
renewed focus on coordinating efforts and recently developed a 
strategic plan for agencies involved in the fight to end 
homelessness. However, once again decisions on how to reduce 
its fragmentation and overlap could be hindered due to lack of 
comprehensive data. It is exacerbated by a lack of consistent 
definition.
    Finally, GAO identified 80 existing Federal programs across 
8 Federal departments that provide funding for transportation 
services for those who are transportation disadvantaged. An 
example of the impact of fragmentation in this area is the 
Departments of Agriculture and Labor both fund programs that 
provide transportation for low income youth seeking employment 
or job training.
    As in other areas I have discussed today, some actions are 
underway. For example, the Interagency Transportation 
Coordinating Council on Access and Mobility has taken steps to 
encourage and facilitate coordination across agencies but more 
is needed.
    In conclusion, opportunities exist to streamline and more 
efficiently carry out programs in those four areas. Careful, 
thoughtful analysis will be needed to address some of the 
issues discussed in our March report and having comprehensive 
information on the programs involved would help facilitate that 
decisionmaking.
    In our future reports, GAO will followup on these areas as 
well as examine other areas in the government for potential 
duplication. We also have in-depth work ongoing in several 
selected areas.
    Thank you, Mr. Chairman. That completes my prepared 
statement and I would be happy to take any questions.
    [The prepared statement of Ms. Dalton follows:]

    [GRAPHIC] [TIFF OMITTED] T0677.007
    
    [GRAPHIC] [TIFF OMITTED] T0677.008
    
    [GRAPHIC] [TIFF OMITTED] T0677.009
    
    [GRAPHIC] [TIFF OMITTED] T0677.010
    
    [GRAPHIC] [TIFF OMITTED] T0677.011
    
    [GRAPHIC] [TIFF OMITTED] T0677.012
    
    [GRAPHIC] [TIFF OMITTED] T0677.013
    
    [GRAPHIC] [TIFF OMITTED] T0677.014
    
    [GRAPHIC] [TIFF OMITTED] T0677.015
    
    [GRAPHIC] [TIFF OMITTED] T0677.016
    
    [GRAPHIC] [TIFF OMITTED] T0677.017
    
    [GRAPHIC] [TIFF OMITTED] T0677.018
    
    [GRAPHIC] [TIFF OMITTED] T0677.019
    
    [GRAPHIC] [TIFF OMITTED] T0677.020
    
    [GRAPHIC] [TIFF OMITTED] T0677.021
    
    [GRAPHIC] [TIFF OMITTED] T0677.022
    
    [GRAPHIC] [TIFF OMITTED] T0677.023
    
    [GRAPHIC] [TIFF OMITTED] T0677.024
    
    [GRAPHIC] [TIFF OMITTED] T0677.025
    
    [GRAPHIC] [TIFF OMITTED] T0677.026
    
    [GRAPHIC] [TIFF OMITTED] T0677.027
    
    [GRAPHIC] [TIFF OMITTED] T0677.028
    
    [GRAPHIC] [TIFF OMITTED] T0677.029
    
    [GRAPHIC] [TIFF OMITTED] T0677.030
    
    [GRAPHIC] [TIFF OMITTED] T0677.031
    
    [GRAPHIC] [TIFF OMITTED] T0677.032
    
    [GRAPHIC] [TIFF OMITTED] T0677.033
    
    [GRAPHIC] [TIFF OMITTED] T0677.034
    
    [GRAPHIC] [TIFF OMITTED] T0677.035
    
    [GRAPHIC] [TIFF OMITTED] T0677.036
    
    Mr. Jordan. Thank you so much.
    We will move next to Mr. Rector.

                   STATEMENT OF ROBERT RECTOR

    Mr. Rector. Thank you, Mr. Chairman.
    I am here today to talk about means-tested welfare 
assistance, which means programs that are targeted to poor and 
low income individuals providing cash, food, housing, medical 
care and social services. For example, food stamps is a means-
tested program, social security is not.
    The big secret here is that the Federal Government runs 
over 69 major means-tested assistance programs. The problem 
isn't so much duplication, but the fact there are so many 
programs, no one in this city has any clue how much money you 
are spending on the poor, absolutely no clue whatsoever.
    When you look at the welfare state, it is as if you have a 
jigsaw puzzle with 69 different pieces. The way Congress 
operated was to look at one piece at a time and only one piece 
and then pretend that piece and that piece alone was the only 
thing standing between poor people and starvation. It 
automatically results in a massive over expenditure. Imagine if 
you ran your family budget that way, you never added anything 
up. You just looked at each component, one at a time. That is 
the way we run the welfare state.
    In fiscal year 2011, total spending on these 69 programs 
was $940 billion, 75 percent of that was Federal spending, 25 
percent was State spending, mainly State contributions required 
into Medicaid.
    Combined Federal and State means-tested spending is now the 
second largest category in government spending overall in the 
Nation. It is exceeded only by Social Security and Medicare. It 
exceeds the cost of public education. Let me repeat that. It 
exceeds the cost of public education and it dwarfs the cost of 
national defense.
    In the two decades before the current recession, means-
tested welfare was the fastest growing component of government 
spending. We never heard that in the Washington Post. It grew 
more rapidly than Social Security and Medicare and the rate of 
increase dwarfed that of public education and national defense.
    Despite the fact that means-tested welfare was at record 
levels when he took office, President Obama has increased this 
spending by a third, but this is a permanent, not a temporary, 
increase in spending. According to Obama's spending plans, 
means-tested welfare will not decline as the recession ends but 
will continue to grow rapidly for the next decade and will soon 
be over $1 trillion a year. He plans to spend $10 trillion over 
the next decade at least.
    About half of this $950 billion goes to low income families 
with children. That is about $470 billion a year. If that 
amount of money were divided evenly among the lowest income, 
one-third of all families and children, which is about 15 
million families, that comes to around $30,000 per family. The 
amount of money being put out there simply dwarfs one's 
understanding. To look at these programs one at a time 
completely misrepresents the type of assistance. There is 
virtually no family out there that only gets aid from one 
program. They get aid from many different programs.
    The means-tested welfare system is a vast, hidden welfare 
state about which the public and legislators know virtually 
nothing. You can't debate it or make rational decisions solely 
on a piecemeal basis. You have to look at the aggregate 
spending.
    I would also say simply the United States cannot afford to 
spend over $1 trillion a year on low income individuals, money 
which we will mainly borrow from the Chinese. We have to get 
this spending under some type of reasonable constraint. If we 
have to continue to spend, we certainly want to assist the poor 
but we have to have some reasonable constraint.
    I would propose that we take this aggregate spending and 
when the recession ends, we should roll that spending back to 
the pre-recession level which was already a record level, 
already beyond anyone's understanding and then allow it to grow 
at inflation for the foreseeable future. That would be a 
reasonable compromise that would help us deal with our debt and 
our deficit but would continue to provide very generous 
assistance to low income persons.
    Finally, I would say the biggest problem with these 
programs is not that they are inefficient, but that they 
generate poverty themselves. Every one of these programs will 
reward people for not working and it rewards people for not 
marrying and those are the two principle causes of child 
poverty. These programs generate need for themselves. The more 
money you put into them, the more people in need of aid you 
create and therefore, the more need for future spending you 
create.
    We need a welfare system that changes those incentives and 
encourages individuals to work and become self sufficient and 
certainly encourages marriage rather than penalizes it. That is 
what Lyndon Johnson said when he launched the War on Poverty. 
He said, ``I don't want to put people on the dole, I don't want 
to put people on government assistance. I want them to become 
prosperous and self sufficient. That is what we need to do.''
    Thank you.
    [The prepared statement of Mr. Rector follows:]

    [GRAPHIC] [TIFF OMITTED] T0677.037
    
    [GRAPHIC] [TIFF OMITTED] T0677.038
    
    [GRAPHIC] [TIFF OMITTED] T0677.039
    
    [GRAPHIC] [TIFF OMITTED] T0677.040
    
    [GRAPHIC] [TIFF OMITTED] T0677.041
    
    [GRAPHIC] [TIFF OMITTED] T0677.042
    
    [GRAPHIC] [TIFF OMITTED] T0677.043
    
    [GRAPHIC] [TIFF OMITTED] T0677.044
    
    [GRAPHIC] [TIFF OMITTED] T0677.045
    
    [GRAPHIC] [TIFF OMITTED] T0677.046
    
    [GRAPHIC] [TIFF OMITTED] T0677.047
    
    [GRAPHIC] [TIFF OMITTED] T0677.048
    
    Mr. Jordan. Thank you. Appreciate that good testimony.
    Mr. Mashburn.

                   STATEMENT OF JOHN MASHBURN

    Mr. Mashburn. As GAO points out in this report, in light of 
the Nation's fiscal outlook, there is widespread agreement that 
we need to look at not just near term steps, but at the long 
term fiscal sustainability of government fiscal policy and 
government programs. However, it should be pointed out that 
this just the latest in a long series of studies and reports 
over the past three decades regarding the need to reform and 
streamline the Federal Government programs to make them more 
efficient and responsive.
    While a lot of the duplication and overlap exists at the 
Federal level, the multitude of Federal programs serving 
similar populations are usually administered by a small handful 
of agencies at the State level such as welfare, human services 
agencies or State work force agencies.
    Much like the GAO report before us, Congress in the late 
1980's was confronted with the recommendations of the so-called 
Grace Commission which President Reagan had established by 
Executive order in 1982. The survey was conducted by over 2,000 
private sector executives, managers, experts and special 
consultants broken up into 36 task forces who submitted a 47 
volume report with a two volume summary and made 2,478 
recommendations. Presidents Reagan and Bush implemented those 
they could administratively via the executive branch but 
Congress essentially ignored those requiring legislative 
action, the ones that would have saved the most dollars.
    The Clinton administration followed up with a National 
Performance Review in 1993 which offered approximately 380 
major recommendations. Again, the Clinton administration 
implemented those that it could administratively in the 
executive branch but Congress generally failed to implement 
those that had to be done legislatively.
    OMB then in 2004 under George W. Bush's administration, 
then implemented the Program Assessment Rating Tool, PART, to 
rate all Federal programs on their effectiveness, in an effort 
to ensure Federal programs were accountable and achieved the 
results for which they had originally been established.
    PART evaluations then served as the basis for the Bush 
administration recommendations for eliminating or cutting 150 
programs. Again, implemented or passed legislation to adopt 
very few of those recommendations.
    In short, the executive branch for three decades under both 
Republican and Democratic Presidents have identified Federal 
programs, including welfare programs, that should be cut, 
eliminated or reformed. Congress, however, has failed to act on 
the vast majority of the recommendations. Hopefully, this 
hearing marks a different juncture in history.
    As we look at the latest recommendations for eliminating 
wasteful, overlapping and inefficient government as part of 
Federal programs, or as GAO euphemistically puts it, ``creating 
efficiencies that could put these agencies in a position to 
better assist program participants while deceasing 
administrative burdens,'' we should keep in mind Ronald 
Reagan's overarching principle as he grappled with the problems 
of welfare reform in California in 1968.
    ``Welfare needs a purpose: to provide for the needy, of 
course, but more than, to salvage these, our fellow citizens, 
to make them self sustaining and as quickly as possible, 
independent of welfare. We should measure welfare's success by 
how many people leave welfare, not by how many are added.''
    When Ronald Reagan testified several years later as 
Governor before the Senate Finance Committee in February 1972, 
he said out several tenets he believed were necessary for 
welfare reform to succeed. They were: Given broad authority to 
utilize administrative and policy discretion, the States are 
better equipped than the Federal Government to administer 
effective welfare programs; a system, whatever it may be 
called, would not be an effective reform of welfare, but would 
tend to create an even greater human problem; a limit should be 
set on the gross income that a family would receive and still 
remain eligible for welfare benefits; for all those who are 
employable, a requirement be adopted that work in the community 
be performed as a condition of eligibility for welfare benefits 
without additional compensation; and the greatest single 
problem in welfare today is the breakdown of family 
responsibility and strong provisions should be made to insure 
maximum support from responsible parents.
    The TANF block grant for welfare cash assistance was based 
on these principles and is one of Reagan's greatest legacies. 
The now undisputed success of the TANF block grant is a 
testament to the leadership of President Reagan and Bob 
Carleson, for whom the Carleson Center is named, who was 
Reagan's welfare policy adviser both when he was Governor and 
when he was President and Carleson continued his efforts toward 
block granting welfare even after Reagan left office.
    Under Reagan's vision, welfare reform is not just about 
saving taxpayers' money, but moving beneficiaries from 
dependence to independence as was often said during debate on 
passage of the 1996 welfare reform law.
    As Reagan was quoted during an address to the International 
Committee for the Supreme Soviet, USSR, September 17, 1990, 
``We have found in our country that when people have the right 
to make decisions as close to home as possible, they usually 
make the right decisions.'' I would note that was before the 
Soviets.
    [The prepared statement of Mr. Mashburn follows:]

    [GRAPHIC] [TIFF OMITTED] T0677.049
    
    [GRAPHIC] [TIFF OMITTED] T0677.050
    
    [GRAPHIC] [TIFF OMITTED] T0677.051
    
    [GRAPHIC] [TIFF OMITTED] T0677.052
    
    [GRAPHIC] [TIFF OMITTED] T0677.053
    
    [GRAPHIC] [TIFF OMITTED] T0677.054
    
    [GRAPHIC] [TIFF OMITTED] T0677.055
    
    [GRAPHIC] [TIFF OMITTED] T0677.056
    
    [GRAPHIC] [TIFF OMITTED] T0677.057
    
    [GRAPHIC] [TIFF OMITTED] T0677.058
    
    [GRAPHIC] [TIFF OMITTED] T0677.059
    
    [GRAPHIC] [TIFF OMITTED] T0677.060
    
    [GRAPHIC] [TIFF OMITTED] T0677.061
    
    [GRAPHIC] [TIFF OMITTED] T0677.062
    
    [GRAPHIC] [TIFF OMITTED] T0677.063
    
    Mr. Jordan. Thank you, Mr. Mashburn.
    They have just called votes but we want to hear from Ms. 
Hamler-Fugitt and then we will recess and come back for 
questions.

                STATEMENT OF LISA HAMLER-FUGITT

    Ms. Hamler-Fugitt. Good afternoon, Chairman Jordan, Ranking 
Member Kucinich and distinguished members of the committee. I 
would like to thank you for the opportunity to testify today.
    I represent the Ohio Association of Second Harvest 
Foodbanks, Ohio's largest charitable response to hunger. We 
provide food, funding, training, technical assistance and Ohio 
Benefit Bank services to a network of 3,000 food pantries, soup 
kitchens and homeless shelters. Eighty percent of our charities 
are faith-based, volunteer-driven, operating on budgets of less 
than $25,000 a year. Half of all the food we distribute comes 
as a result of Federal and State funding.
    Over the last decade, the number of Ohioans in poverty has 
grown by a staggering 46 percent and the effects of the great 
recession are still with us: deeper poverty, lower fixed 
incomes, minimum wages, part-time employment and many are 
suffering from long term unemployment.
    In the last quarter of 2010, our charities served nearly 
2.1 million Ohioans and half of those we served were children 
and the elderly, yet every day more hungry Ohioans are standing 
in our lines and their limited budgets are now being further 
shattered by rapidly rising food and fuel costs. It is bad out 
there. Those who were already hanging by their fingertips are 
now falling into the abyss and the organizations that we serve 
are begging for crumbs and praying for a miracle.
    Mr. Chairman, the GAO produced a very balanced report and I 
support many of its findings, but there are some real world 
realities to these findings that must be highlighted. One, 
program overlap does not always mean duplication. Some of these 
critical programs already have fixed funding, eligibility and 
enrollment caps and cannot respond to increased need, 
particularly in a weak economy. Many families who struggle with 
hunger are not poor enough to qualify for support. The 
consequences of increasing hunger and malnutrition are severe, 
including lowered productivity, educational achievement and 
astronomical health care costs.
    SNAP, the largest USDA program, served nearly 42 million 
Americans. One in seven Americans received food stamps in 
February. It has the lowest eligibility of all Federal 
nutrition programs and the maximum benefits lasts less than 
2\1/2\ weeks out of every month.
    The GAO reports describes the Commodity Supplemental Food 
Program as one of the duplicative programs citing that many 
seniors eligible for this program are also eligible for SNAP, 
yet seniors with limited mobility and transportation barriers 
may not be able to purchase food at a grocery store and 
therefore, benefit from both a box of food provided through the 
Emergency Assistance Program and CSFP as well as home-delivered 
meals.
    In Ohio, a fortunate 20,463 seniors receive a 40 pound box 
of government food valued at $18.77 a month. The waiting list 
for this program is long and many of our food banks report that 
seniors in their communities call and ask for the CSFP box of a 
recipient that they know has gone into a nursing home or worse 
yet, other non-participating seniors will read the obituaries 
and if they see the name of someone they know who has received 
CSFP, they ask if they can receive the deceased recipient's box 
of food. This is hardly a case of people getting too many 
benefits. Rather, it shows people do not have enough to eat.
    Another example of the real world reality of vulnerable 
Ohioans is that one out of every two babies born in Ohio is 
potentially eligible for WIC, a modest supplemental program 
like SNAP, it is not intended to meet the participants' entire 
nutritional needs. In fact, a study conducted by the University 
of Cincinnati Children's Hospital found that 65 percent of the 
families reported they had run out of formula and did not have 
money to buy more and 39 percent of the families studied were 
already on WIC and SNAP, yet were at risk of hunger.
    All too often these programs do not always reach the poor 
because of rules and requirements that are confusing, requiring 
families in need to produce multiple documents and 
verifications multiple times at multiple agencies, using 
precious time and gas money, traveling and sitting in waiting 
rooms of agencies that would be better spent keeping a job and 
finding a new one and it does not make sense for people with 
limited mobility.
    We agree with GAO that programs are decentralized, lack 
coordination and data sharing, all of which are required to 
improve efficiencies and effectiveness. I would like to briefly 
share our association's experience in reducing efficiencies and 
unnecessary overlap while ensuring that people receive access 
to benefits.
    Our association met this challenge head on. We implemented 
the Ohio Benefit Bank and Internet-Based Application Assistance 
Program which streamlines program access and reduces barriers 
by providing a single application platform of more than 20 
programs. We have joined together nine State agencies and four 
Federal agencies and have leveraged public and private 
resources establishing yes, over 1,100 not-for-profit and 
faith-based and community partners and recruited some 4,300 
counselors reaching people where they work, live, play and 
pray.
    Again, we believe that in order to prevent duplicative 
efforts in costs, investments are needed to upgrade and 
integrate systems used to determine and maintain eligibility 
across all health and human service lines.
    Again, I thank you for the opportunity and would be pleased 
to answer any questions you may have.
    [The prepared statement of Ms. Hamler-Fugitt follows:]

    [GRAPHIC] [TIFF OMITTED] T0677.064
    
    [GRAPHIC] [TIFF OMITTED] T0677.065
    
    [GRAPHIC] [TIFF OMITTED] T0677.066
    
    [GRAPHIC] [TIFF OMITTED] T0677.067
    
    [GRAPHIC] [TIFF OMITTED] T0677.068
    
    [GRAPHIC] [TIFF OMITTED] T0677.069
    
    [GRAPHIC] [TIFF OMITTED] T0677.070
    
    [GRAPHIC] [TIFF OMITTED] T0677.071
    
    [GRAPHIC] [TIFF OMITTED] T0677.072
    
    [GRAPHIC] [TIFF OMITTED] T0677.073
    
    [GRAPHIC] [TIFF OMITTED] T0677.074
    
    [GRAPHIC] [TIFF OMITTED] T0677.075
    
    Mr. Jordan. Let me thank all our witnesses.
    We will be back in probably 25 minutes. There are 9 minutes 
left in this vote, so we have to go vote. I appreciate your 
patience.
    We stand in recess.
    [Recess.]
    Mr. Jordan. Ms. Dalton, in Mr. Rector's testimony, he 
talked about 69 different programs, but I look at some of the 
things in your report and you talk about 47 Federal employment 
training programs, 18 different food programs. Do we have any 
idea what the real number is? Is it 69 or 169, 3,000,000? What 
is the number of programs?
    Ms. Dalton. We looked at functional areas and tried to 
identify as many programs as we could in those areas. That is 
where you are seeing the numbers of 20, 40, 82, 47 in the 
employment and training area. One of the difficulties is trying 
to define what a program is. There is not agreement on exactly 
what a program is, so there may be some differences in 
definition.
    Mr. Jordan. Did you categorize them the way I think we 
have, programs providing food aid, housing, social service 
programs, education programs, basic cash assistance programs, 
vocational training, job training programs, medical programs, 
energy and utility assistance type programs and then child care 
programs. Did you put them in the same broad categories?
    Ms. Dalton. We did very broad categories. In some cases, 
for example, employment and training, we would include the full 
range of employment and training services. It may be targeted 
toward youth or targeted toward adults.
    Mr. Jordan. If you had to hazard a guess, what would your 
number be? I have been using 70.
    Ms. Dalton. Certainly if you accumulated the numbers that 
we talked about today, it is in the hundreds.
    Mr. Jordan. Hundreds, so more than 70. Would you agree with 
the concept Mr. Rector raised that is in the legislation I have 
introduced and some Members have co-sponsored, saying it would 
be helpful if we at least had an aggregate number of what the 
government spends each and every year on the 100-plus means-
tested social welfare programs?
    Ms. Dalton. I think it certainly would be good to have a 
number of how many programs there are, what exactly are we 
spending and what are we getting for that money.
    Mr. Jordan. It would be good to know the real number of 
programs and the various agencies, the total we spend, the 
aggregate number and most importantly, are these things 
working. Just for the committee and the record, can you tell 
how many are having success with the people they intend to 
help?
    Ms. Dalton. Certainly in some of the areas, there is some 
information about the success of the programs.
    Mr. Jordan. Give me a number. Of the 100-plus programs, how 
many programs? Is it single digits? Is it 20, 50? What is the 
number based on your report and the work you have done, of the 
100-plus programs, are actually helping the people they are 
supposed to help?
    Ms. Dalton. It would be difficult for me to give you a 
specific number.
    Mr. Jordan. Because you can't give a number? You have no 
idea?
    Ms. Dalton. No.
    Mr. Jordan. No clue?
    Ms. Dalton. I know it is not in the single digits, but 
beyond that, I couldn't tell you.
    Mr. Jordan. Twenty percent?
    Ms. Dalton. It is really hard to tell.
    Mr. Jordan. Less than 50 percent?
    Ms. Dalton. I really wouldn't want to hazard a guess.
    Mr. Jordan. All right. Thank you.
    Mr. Rector, you talked about the wrong incentives we have. 
Not only do we not know how many programs there are or how much 
money we spend, but all those programs across agencies, we send 
the wrong incentive. I have often said that the welfare system 
particularly says to the single mom out there, don't get 
married, don't get a job, have more kids and you get more 
money. Is that a fair assessment? Is that across the board in 
these 100 plus programs sending the wrong message? Elaborate on 
that a bit more if you could.
    Mr. Rector. All of these programs have an anti-marriage 
effect because they are means-tested. The way that works is 
that in a means-tested program, the more earned income there is 
in the household, the lower the benefits will be. It is 
automatic. What is the first way then to have a lower amount of 
earned income is not to have a married husband in the 
household. If you have a married husband in the household, his 
income is automatically counted toward eligibility. So each and 
every one of these programs in almost every circumstance, the 
family will get less money as a result of being married to an 
employed man. The net result has been that basically these 
programs have supplanted fathers as bread winners throughout 
about a third of the U.S. population.
    When Lyndon Johnson started the War on Poverty in 1964, 7 
percent of American children were born outside marriage. Today, 
that number is 43 percent. Forty percent of the births in the 
United States are paid for by Medicaid. Almost all of those are 
non-marital births. There is an incentive right there to begin 
with.
    Basically, for many blue collar families, if the couple is 
married and the man does not have a good health insurance 
policy, which is quite probable, then the cost of the 
childbirth to that married couple will be borne by the couple. 
On the other hand, if they separate, then Medicaid is almost 
inevitably going to pick up the full cost. From the beginning, 
the moment a child is conceived, the State is saying as long as 
you don't get married, you are on our dime but if you are 
married to a working man, basically, you have to shoulder these 
costs.
    All of these programs have an anti-marriage effect and most 
of them have a very strong anti-work effect and as a result, we 
basically have done the opposite of what Lyndon Johnson said we 
should be doing. He said, I don't want to put people the dole. 
In fact, I was reading this marvelous thing in the 1964 
economic report of the President where they were first talking 
about the War on Poverty where it actually says, we could wipe 
out all the poverty in the United States for $20 billion a 
year. We could pick up this money and give it to people and 
they would no longer be poor but we are not going to do that 
because it would be wrong.
    What happened is we completely changed it and then got in 
the business of giving people support rather than trying to 
make them capable of supporting themselves more effectively. In 
particular, we basically displaced marriage in the low income 
community. The single, strongest cause of poverty in the United 
States today is the lack of marriage. Our society is dividing 
into two castes. In the upper part, you have married couples, 
children raised by married couples both of whom have a college 
education. In the bottom 40 percent of our population is 
mothers who are not married and have a high school degree or 
less. That is the poverty population and it is about over $300 
billion a year in welfare assistance there as well.
    Mr. Jordan. Thank you.
    The gentlelady from New York.
    Ms. Buerkle. Thank you, Mr. Chairman. Our apologies to all 
the witnesses for the temporary recess we had.
    My first question is for Ms. Dalton and then I have a 
question for the entire panel. This is a followup to the 
chairman's question.
    You talk about measuring outcomes and understanding the 
effect of these programs. I think that is so very important 
because when we talk about these programs, it is not an 
unwillingness on anyone's part to provide what we need for the 
neediest but the issue is, this is not our money. This is the 
American peoples' money. We must be responsible stewards of 
that money. I think we need to understand the impact studies.
    You stated that 5 out of the 47 programs have completed an 
impact study since 2004 and that in those five programs any 
positive effects tended to be small, inconclusive or restricted 
to short term impacts. I want to be sure that I understand what 
you are saying. Basically, for the vast majority of the 47 
employment training programs run by the Federal Government, 
using $18 billion of taxpayer money, there is little or no 
information about whether or not these programs actually work?
    Ms. Dalton. All the employment and training programs, there 
is some performance information that is collected. The most 
common measure is entered employment, did the person get a job, 
but that information alone really doesn't tell you the impact 
of the program, did the person get a job, did they retain the 
job, are they making a sustainable wage. That is the type of 
information really gets at impact. That requires some pretty 
thorough study.
    You are also trying to see whether or not the particular 
program is the causal agent of creating the impact. In these 
areas where you have multiple services coming from different 
programs, it is difficult to isolate it, but it is important to 
know that because then you have a better idea of what is really 
working and where do you want to invest your money.
    Ms. Buerkle. Thank you. My next question is for all four of 
the panelists.
    The GAO's testimony today states the Federal Government 
spent about $90 billion on domestic food and nutrition 
assistance in fiscal year 2010. This is an update to the $62 
billion for fiscal year 2008. That is a 44 percent increase 
over 2 years.
    I would like to hear from each of you on this. Is this a 
temporary increase, is this a result of the financial crisis or 
do we have reason to believe that these increases in other 
social welfare programs will continue to increase?
    Ms. Dalton. Much of the increase is, in fact, due to an 
increase in benefit levels that was included in the Recovery 
Act. My understanding is that increase will end in November 
2013. A large percentage of that increase is due to the 
Recovery Act legislation and will recede to prior levels in 
November 2013.
    Ms. Buerkle. Do we have any idea of the dollar amount?
    Ms. Dalton. I can get that for you.
    Ms. Buerkle. I would appreciate that.
    Mr. Rector.
    Mr. Rector. I can get you the exact numbers on that. I 
believe that food stamps goes down slightly a few years from 
now, but overall, food assistance, I believe, grows at more 
than the rate of inflation for the foreseeable future.
    Overall, when you look at cash, food, housing, medical care 
and social services, there is no decline in government spending 
even as the recession ends. I can provide you those numbers but 
they in the back of President Obama's budget where no one would 
look at them, but they are all there. In fact, all the spending 
continues to grow quite rapidly as far out as the President can 
project it.
    A lot of people regard spending on the poor or welfare 
spending like it is a roller coaster that in a recession, it 
goes up and in good times, it comes back down. If you look at 
the back of my testimony, this is the picture of welfare 
spending adjusted for inflation since 1950, since the Korean 
War. You don't see too much coming down there. It is more like 
the Alps slope, it goes up rapidly or goes up at a moderate 
pace. It never comes down. There are only about 2 years in this 
entire period where it actually came down.
    The nature is that during a recession, this money gets 
pumped up--we have pumped it up by 30 percent over the last 2 
years--and then it never comes back down. I believe that is 
what the Nation simply cannot afford to in the future.
    Ms. Buerkle. Thank you.
    I apologize, Mr. Mashburn, I am out of time.
    Mr. Jordan. Go right ahead.
    Ms. Buerkle. Thank you, Mr. Chairman.
    Mr. Mashburn.
    Mr. Mashburn. As Ms. Dalton mentioned, ARRA, our stimulus 
bill, as many call it, increased the SNAP benefits by about 15 
percent. In addition, the reasons the numbers might not come 
down is it also expanded eligibility and many of those 
expansions of eligibility are proposed in the President's 
fiscal year 2011 and his new fiscal year 2012 budgets, such as 
it eliminates the 3-month time limit on benefits for able 
bodied adults without children, so they are just free. They 
don't have any limits, so now food stamps are available to able 
bodied men who aren't working as long as they don't' have 
children.
    It increases the household income dollar limits and 
disregards the amount of money people can make but the income 
disregards, the things you don't count as income, has also gone 
up. The EITC used to be disregarded for 3 months. I think the 
President's proposal disregards it for 12 months. If you 
disregard it for 12 months, you have completely disregarded it. 
That is a $5,000 a month benefit and it is not income.
    As long as those asset tasks and other eligibility 
requirements that restricted the caseload to the truly needy 
keep expanding, I don't see how you are ever going to get the 
program to fall. Just this month, a man won $2 million in the 
Michigan State Lottery. He is eligible for food stamps. He was 
on food stamps before and he is still eligible. Michigan has 
been trying for 2 or 3 months to get him off, but they are 
restricted by the Federal asset test--there is no asset test.
    Even though he bought a new house, a new car, the income he 
has comes in from the remaining part of his winnings he has 
left after the house, the car and everything else, is less than 
the eligibility cutoff for his benefits. The State Human 
Services Department spokesperson mentioned it is a Federal 
policy. We have been trying but we can't do it which is why a 
lot of people are proponents of block grants because you can 
see the State knew that wasn't right and wanted to do 
something. It is the feds that are keeping them from doing the 
right thing.
    Ms. Buerkle. Thank you, Mr. Mashburn.
    Ms. Hamler-Fugitt.
    Ms. Hamler-Fugitt. Food stamp participation has grown by 
60.4 percent since February 2008. It is at an all time record 
high. Expenditures are up directly as a relation to the economy 
and the number of individuals who now find themselves in many 
cases working but earning wages that don't lift them or their 
families out of poverty. In many cases, it has been the long 
term unemployed, many who have been unable, despite their best 
efforts, to find employment in their area.
    Certainly we are concerned and again, this is a 
supplemental program. Individuals who are suffering from hunger 
and food insecurity don't first turn to the SNAP Program. They 
use five to seven different other coping strategies before they 
ever ask for help. They are selling their personal possessions 
on ebay, Craigslist and at yard sales; they are sending their 
children to the homes of friends and neighbors in order to eat. 
The last place they turn is to the public welfare office.
    Ms. Buerkle. Thank you very much and thank you, Mr. 
Chairman. I yield.
    Mr. Jordan. The gentleman from Ohio.
    Mr. Kucinich. Mr. Chairman, again, I want to thank you for 
holding this hearing and for inviting Ms. Hamler-Fugitt, who 
plays such a critical role in providing food to families across 
our State, to testify at this hearing.
    The statistics she has provided to this committee are 
shocking. Yesterday, when I met with her, she showed me this 
map of Ohio which I would like to enter into the record with 
unanimous consent.
    Mr. Jordan. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0677.076
    
    [GRAPHIC] [TIFF OMITTED] T0677.077
    
    [GRAPHIC] [TIFF OMITTED] T0677.078
    
    Mr. Kucinich. It shows that in Ohio today, 70 of Ohio's 88 
counties now have more than 25 percent of the residents 
eligible for emergency food. I look at our State and I think of 
all of us who serve it. We are representing counties in which 
30 to 35 percent of the population is at or below 200 percent 
Federal poverty level which is the threshold for eligibility 
for food assistance programs.
    We share a desire to ensure our constituents in Ohio and 
across the country that we are able to put enough food on the 
table so the children don't go hungry and the elderly aren't 
forced into even more unfortunate circumstances, trying to find 
available supplemental food. Families are still struggling with 
hunger even as they rely on current Federal food assistance 
programs and local resources.
    I would like to make a commitment to you today, Mr. 
Chairman, to work together to determine how we can best 
streamline these programs to eliminate administrative 
inefficiencies, but as we have this conversation about finding 
program inefficiencies, I am very concerned that we don't 
weaken programs' ability to meet needs either by reducing 
benefits or cutting eligibility for those who need assistance.
    I am letting you know that I look forward to working with 
you so that we can ensure that these critical food programs are 
protected from further budget cuts and from current levels of 
food assistance. Can we do something together on that, Mr. 
Chairman?
    Mr. Jordan. I thank the gentleman for his focus. Our job is 
to make the assistance work better and ultimately help the 
people the programs are intended to help and by so doing, you 
save money for the taxpayer at this critical time in America's 
fiscal situation. That is our focus as conservatives. We want 
to help those who need help and by so doing, you save money.
    Mr. Kucinich. Thank you, Mr. Chairman.
    There is a real weight that is put on us because we have to 
make sure that as we analyze these programs in our desire to 
streamline them, that we don't inadvertently lowering the 
available benefits at a time of highest demand. That is one of 
the reasons Ms. Hamler-Fugitt came forward in her testimony 
that is so important to people she serves. This, again, is 
trying to make sure that people who are hungry have some 
resource, somewhere so they are not left out.
    We can get an ideology about how this happens, and I might 
agree with you on some of those things, but I am concerned that 
we stay focused on wherever there are programs that are working 
and feeding people that we keep doing it.
    I want to say to Ms. Hamler-Fugitt, you said there have 
been two problems with food assistance and other service 
programs available in Ohio. First, do you not believe they are 
adequately funded? That is obvious from your pitch. Is that 
right?
    Ms. Hamler-Fugitt. That is correct, sir.
    Mr. Kucinich. You believe that some of the different rules 
and application processes are causing eligible and needy people 
to miss out on benefits for which they are eligible, is that 
right?
    Ms. Hamler-Fugitt. That is correct, sir.
    Mr. Kucinich. What can we do to make accessing benefits 
simpler and more efficient?
    Ms. Hamler-Fugitt. One is that we have to align and 
integrate the systems that manage them. I think certainly the 
frustration and my own frustration in reading the GAO report is 
that we lack data. We lack data because we have antiquated 
systems that were developed on a COBOL platform which is more 
than 50 years old. IT graduates are not trained in COBOL. In 
fact, in our State, we need to bring people out of retirement 
to reprogram basic systems. I see the chairman smiling, he 
remembers this at the State.
    We need to invest in technology that is available. We have 
worked on this at the State level. We need to mandate that both 
the Federal and the State agencies with jurisdiction over these 
programs work together, ensuring that we are not writing 
redundant rules and regulations. We need to ensure access 
points, but also at the same time, maintain integrity.
    In our shop, data equals dollars. It is very clear to me 
that is what we are missing. We have undertaken independent 
research on our benefit bank. In fact, we have been working 
with the Voinovich School at Ohio University to evaluate not 
only the impact of integrating programs and service delivery, 
but also doing longitudinal studies on those who are 
participating in the programs so we can make informed decisions 
about where we go.
    To blame the poorest of the poor, the hungriest of the 
hungry, because of the failure to collect adequate information 
is unconscionable.
    Mr. Kucinich. Thank you very much.
    Mr. Jordan. Ms. Hamler-Fugitt, you said participation in 
your programs is up currently?
    Ms. Hamler-Fugitt. Yes, sir.
    Mr. Jordan. By what percentage?
    Ms. Hamler-Fugitt. We are up nearly 47 percent.
    Mr. Jordan. So a few years back when the economy was in a 
much better situation, you had much fewer participants in your 
program, much less need for your food assistance program?
    Ms. Hamler-Fugitt. It has been climbing, not as drastically 
as it has in the past few years as a direct result of the great 
recession, but it has been climbing since the onset of welfare 
reform. Certainly we saw many folks who left the system, did 
not know that other supportive services were available.
    Mr. Jordan. Do you anticipate as the economy improves your 
numbers going down? Has that been the pattern in the past? Have 
you seen in good economic times, you have less and in bad 
economic times, you have more participants?
    Ms. Hamler-Fugitt. No, unfortunately, we haven't.
    Mr. Jordan. You don't anticipate when the economy 
improves--which we all hope it does sooner rather than later--
any less participants in your program?
    Ms. Hamler-Fugitt. I don't. If you look at the data, Ohio 
currently ranks 50th out of all States in income growth.
    Mr. Jordan. I am going back to the point Mr. Rector made. 
Most people assume when the economy improves, there is less 
need for social services.
    Ms. Hamler-Fugitt. It would be so if the jobs that are 
coming back paid a livable wage, but certainly what we have 
seen is surge in minimum wage jobs being created in the State 
and over half of the 31,000 jobs that were created over the 
last year came in the retail sector were paying minimum wage or 
slightly above minimum wage.
    Mr. Jordan. You said there has been a higher growth rate in 
the last few years but it was growing even in 2005 and 2006. Is 
any of that attributable to a broader definition of who 
qualifies? How does it work?
    Ms. Hamler-Fugitt. On the Food Stamp Program, we certainly 
have made some changes and I would say that some of those 
policy changes have brought in more people. It has also been 
about education, assuring people standing in our food lines 
that the Food Stamp or the SNAP Program was available. We have 
been pretty aggressive in our outreach. Our goal is we want 
people standing in grocery store checkout lines instead of food 
pantry lines, making healthy decisions for themselves and their 
families.
    Mr. Jordan. Would you agree that it would help if we knew 
how many social welfare programs actually exist in the Federal 
Government, how much we spend totally and whether those 
programs are actually helping the people they are intended to 
help?
    Ms. Hamler-Fugitt. Yes, sir, Mr. Chairman. That is good 
government.
    Mr. Jordan. Mr. Mashburn, talk to me a bit more about this 
whole block grant concept. It seems to me you get the dollars 
to the local level to people like Ms. Hamler-Fugitt who will 
actually work with the folks on the State and local level. That 
makes a lot of sense and how it was used with TANF. Give me the 
broader perspective on the block grant concept.
    Mr. Mashburn. The block grant concept as far as TANF was 
concerned, initially was a bare bones block grant which was you 
sent an amount of money to the States, you didn't do a 
maintenance effort requirement on the States and in the 
negotiations--the Clinton administration and others--there was 
a maintenance of effort requirement imposed on the States. Then 
the Governors came in and said, if you are going to require us 
to keep spending what we are spending, you at the Federal level 
have to keep spending what you are spending. You guaranteed 
that level at the Federal level, you didn't index for 
inflation.
    That had a strange effect in that the State bureaucracies 
knew they were going to get a guaranteed amount of money and 
knew if they reduced the rolls, they weren't going to lose any 
of that money. Whatever savings they had, they were required to 
spend it on a harder to place population.
    That had a lot of the effect and changing the welfare 
bureaucracies from basically a caseload enrollment center into 
employment agencies, getting people trained, getting people off 
the rolls. The work requirement changed the attitudes and the 
motives of the recipients, but the funding mechanism through 
the capped but guaranteed level of Federal spending changed the 
motivations and the economic incentives for bureaucracies 
themselves. They didn't have to worry about losing money.
    They also weren't able to count of being given more money 
like under AFDC where every time you enrolled a new recipient, 
you got 80 percent of your costs from the Federal Government.
    Mr. Jordan. Let me ask one more question for both you and 
Mr. Rector.
    The first piece of legislation I got passed as a member of 
the Ohio General Assembly was time limits for able bodied 
adults receiving cash assistance. We argued at the time, and I 
think we were proven right, deadlines influence behavior. If 
able-bodied adults know there will come a point where they will 
no longer be eligible for the benefit, in this case, it was 
cash assistance, it influenced what they did. It was amazing no 
one got kicked off the program because they found work, they 
found opportunities. They had the right incentive in place to 
actually find employment prior to the deadline. Deadlines 
influence behavior. Deadlines change things.
    Do you think we need to move more in that direction with 
many of these programs, both Mr. Mashburn and Mr. Rector?
    Mr. Rector. That is the basic point about whether these 
programs accomplish their goals. The problem is that in 95 
percent of these programs, the goal is to give people stuff. 
That is the only goal and the government can give away a lot of 
things. It has given away $16 trillion since the beginning of 
the War on Poverty. When you give people free food or free 
housing, they have something they didn't have before.
    The problem is that in doing this, we have created a 
culture of dependency and the more money you give, the more 
dependent people you generate. The work ethic goes down and 
marriage disappears as the welfare checks serve as a substitute 
for the husband. That is why you can never stop spending in 
these programs. The more you spend, the more you need for 
assistance you generate.
    In all of these programs, you need to basically say, we 
want to assist you, but we want to assist you in such a way 
that we encourage the best efforts on your part. We are going 
to require you to prepare for work or take a job. We are going 
to create a welfare system that isn't hostile to marriage. By 
the way, we are also going to tell young people that if you 
don't want to be poor, the No. 1 thing you can do in the United 
States is be married before you have a child. It is more 
effective than graduating from high school.
    No one ever knows that. Suppose we never told high school 
dropouts that dropping out of high school was bad for them. In 
terms of the No. 1 cause of poverty, which is non-marital 
birth, we never tell anyone about that. We need to create a 
system that supports but at the same time encourages positive 
behavior.
    None of these programs have that objective, except for TANF 
perhaps. Therefore, they can succeed but what they are 
succeeding in is giving people assistance and making future 
generations dependent on welfare.
    The other thing we need to be very careful about is 
exaggerated statements about need. As I have indicated, and 
these figures are correct, we are spending close to $30,000 
when you take all these programs together for each low income 
family with children. If we are spending that amount of money 
and still have all these kids with empty stomachs, I am a 
critic of the government but my goodness, that would be worse 
than anything I could possibly imagine.
    The reality is when we look closer at this, and I agree 
that food assistance needed to go up during the recession. It 
has gone up but if you look at the USDA data, which has a 
survey of food security and hunger, it shows during 2009 of all 
the poor people and the poor children in the United States, 
only 4 percent of them had any disruption of food intake that 
might relate to hunger; 96 percent of poor children did not 
experience that; 80 percent of poor adults did not experience 
any disruption of food intake at any point during the year. It 
is right in these reports which are national surveys. I think 
that is good. That is not something I am complaining about.
    As we look at spending of the dollar, we have to be 
realistic in understanding what the nature of the need is and 
not to constantly exaggerate and constantly say all we need is 
more money.
    Mr. Jordan. Let me ask Ms. Hamler-Fugitt one question and 
then I will go to Mr. Mashburn.
    Ms. Hamler-Fugitt, what percentage of the people you serve 
come from single parent homes?
    Ms. Hamler-Fugitt. We don't track that data, Mr. Chairman.
    Mr. Jordan. Hazard a guess.
    Ms. Hamler-Fugitt. Don't track the data.
    Mr. Jordan. You sort of have a feeling. Getting to Mr. 
Rector's point, is it that we have a system that encourages 
people not to be married? I am just curious if that is what you 
are seeing in the food side of things versus some of the other 
programs?
    Ms. Hamler-Fugitt. I would agree that certainly looking at 
the latest census data that has come out on the community 
survey, we are seeing an increase in poverty among single 
female heads of households. I do want to make a statement that 
in welfare reform, there was a lot of work we did at the State 
level, as you know, with the Governor's Office of Faith-Based 
and Community Initiatives around looking at these issues and 
incentives including around family formation. I think to some 
degree the States have done a good job.
    Mr. Jordan. Mr. Mashburn, then Mr. Kucinich.
    Mr. Mashburn. I would just point out there is another GAO 
report that came in February 2010, Temporary Assistance to 
Needy Families. Fewer eligible families have received cash 
assistance since the 1990's. When you first look at that, it 
sounds like there are a lot of people out there eligible for 
benefits that aren't receiving them and the government ought to 
do something about it to make sure they receive it.
    When you did into the report, they mention you go from 57 
million eligible families in 1995 down to 53 million eligible 
families in 2005 which is a lot less than the reduction in the 
TANF caseload over that period of time. You realize that the 
way they count nonparticipation is a person found a job on 
their own, the government found them a job before they got on 
TANF, there are people not participating because they can 
actually make more money in some of the other welfare programs 
if they don't take the TANF benefits because TANF benefits 
count toward your eligibility and your level of benefits in 
other programs like SNAP.
    Finally, a lot of the non-participants didn't like the 
hassle of having to prove to the taxpayers that they were 
deserving of help from the taxpayers because they didn't like 
having to go to the job interviews, the work requirements, all 
the other stuff so they just said, I won't take TANF. I will 
get SNAP or some of these other benefits. Those were counted as 
non-participants.
    If you have a job and you are not participating, you may in 
the income eligibility framework to be eligible for TANF, but 
the fact you got a job and you are self-sustaining doesn't mean 
the government needs to sign you up for TANF and get you to 
quit your job.
    Mr. Kucinich. Mr. Rector, I just want to make sure that I 
heard you correctly. Did you say that welfare checks are 
substitutes for husbands?
    Mr. Rector. In a large part, what welfare assistance has 
done is to supplant the role of the male earner in the home. 
The numbers are just there.
    Mr. Kucinich. You said welfare checks substitute for 
husbands? Did you say that?
    Mr. Rector. Yes.
    Mr. Kucinich. I just have to say that seems like somewhat 
of a simplistic formulation. Do you really mean that to be what 
you say for the record because if you do, we have to go a bit 
deeper into this.
    Mr. Rector. Let us go deeper into it. That may be a little 
bit crude but yes, I would absolutely say that welfare, not 
just cash checks but the whole system, has served as a 
substitute for the role of the male breadwinner in the home. In 
fact, without that massive level of assistance, there is no 
possible way that we could have gone from a 7 percent out of 
wedlock birth rate in 1965 to a 42 percent rate today simply 
because these low income mothers would not be able to sustain 
those children without government assistance.
    Mr. Kucinich. These low income mothers, do you want to tell 
me a little bit about what these low income mothers should be 
doing?
    Mr. Rector. I would be very happy to. A lot of people 
confuse non-marital births with teen pregnancy. Only about 7 
percent of these births occur to girls under 18. It is mainly 
young adult women, 19 to 25. Most of these births are 
intentional, the mother desires to have a child, the mother 
sees having a child as an important role and goal in her life. 
The data I am reading now comes from something called The 
Fragile Family Survey, out of Princeton University. It is very 
important to understanding this phenomenon.
    These mothers are actually also quite sympathetic toward 
the idea of marriage in the wrong term. They would like to have 
a husband, a house in the suburbs, a couple kids and a mini-
van, a dog, very traditional goal. What has happened is that we 
have developed a culture where they think it is not important 
to be married before bringing children into the world, that you 
have children first and then you look to get married.
    I am not making this up. I can come to your office and give 
you books and books on this, all written basically by liberal 
scholars. Our understanding of this has increased greatly.
    Mr. Kucinich. So what do you propose? Do you propose that 
we don't feed these children?
    Mr. Rector. No, that wouldn't work very well.
    Mr. Kucinich. What do you propose?
    Mr. Rector. What I would propose is that each of these 
programs, as I tried to explain earlier, does have a penalty 
that if you do get married, you lose some benefits. We ought to 
try to soften that a bit.
    Mr. Kucinich. How would you soften it?
    Mr. Rector. You could either reduce the benefits that go to 
the single parent or you could increase the benefit.
    Mr. Kucinich. Why would you reduce anybody's benefits in a 
period where people are having trouble making ends meet? I 
don't interrupt you, don't interrupt me.
    Mr. Rector. Fine.
    Mr. Kucinich. I want to submit for the record an article 
from the New York Times dated March 21, 2011. The headline 
says, ``Many low wage jobs seen as failing to meet basic 
needs.'' I am going to read just a few quotes from this. ``Hard 
as it may be to land a job these days, getting one may not be 
nearly enough for basic economic security. Many of the jobs 
being added in retail, hospitality and home health, to name a 
few categories, are unlikely to pay enough for workers to cover 
the cost of fundamentals like housing, utilities, food, health 
care, transportation and in the case of working parents, child 
care.''
    It also says ``A single worker with two young children 
needs an annual income of $57,756, just over $27 a hour, to 
attain economic stability. A family with two working parents 
and two young children needs to earn $67,920 a year or about 
$16 a hour per worker. That compares with the national poverty 
level of $22,050 for a family of four. The most recent data 
from the Census Bureau found that 14.3 percent of Americans 
were living below the poverty line in 2009.''
    There is one other quote I want to read. ``The numbers will 
not come as a surprise to working families who are struggling. 
Tara, a medical biller who declined to give her last name, said 
she earns $15 a hour while her husband works in building 
maintenance and makes $11.50 a hour. The couple live in Jamaica 
Queens and have three sons, aged 9, 8 and 6. `We try to cut 
back on a lot of things,' she said, but the couple has been 
unable to make ends meet on their wages and visit the River 
Fund Food Pantry in Richmond Hill every Saturday.''
    We have a jobless recovery where the Fed is printing money 
out of nothing and giving it to banks, banks not loaning money 
to mainstreet so jobs can be created. I have never in my time 
seen so many people standing in line to get food even in my own 
neighborhood in Cleveland. We have to be very careful about 
engaging in sophistry while people are not just struggling to 
make ends meet but people are starving.
    I respect all the witnesses, you are very kind to be here 
and testify but there is a point at which, Mr. Chairman, some 
of this testimony is a bit tough to take.
    Mr. Jordan. But would the gentleman agree that it is 
important for programs to have the right incentives in place 
and would the gentleman agree, and I think he would, that many 
of these 100 plus programs do encourage the wrong kind of 
behavior. We can disagree on what the remedy is but I think the 
gentleman would agree that when you have incentives in place 
that don't encourage the pursuit of work, maybe encourage more 
children to be borne out of wedlock, wouldn't you agree that we 
at least need to try to figure out a way to address that?
    Mr. Kucinich. I think the purpose of this hearing that 
deals with attempting to streamline programs, I think is a 
great idea, absolutely. I think we should all agree with that. 
When testimony moves from that into value judgments on people, 
particularly single women who find themselves in extraordinary 
circumstances, I would bet there are probably a number of 
Members of Congress raised by one parent families, in 
particular single women, who find themselves in extraordinary 
circumstances. The mother's first concern is to feed her kids. 
That is No. 1, even before the roof.
    Mr. Jordan. Would the gentleman answer the question? Don't 
you think we do need to at least try to address the incentive 
situation in these programs?
    Mr. Kucinich. I think we ought to give people jobs. Jobs 
create work. There ought to be work, not welfare, for those who 
are able to work. That is fundamental. When you have Wall 
Street accepting that a certain amount of unemployment is 
necessary for the proper functioning of the economy, I think 
that is a moral question.
    Mr. Jordan. Would the gentleman also agree that when you 
have over 100 different means-tested social welfare programs, 
we can't determine the exact number, according to the GAO; we 
can't determine how many of those programs are successful; and 
we don't have any idea what the aggregate cost is or what we 
are spending on all those programs, that is a problem as well?
    Mr. Kucinich. I think we have to sort out those things 
while we keep feeding people.
    Mr. Jordan. I thank the gentleman.
    I will yield now to the gentlelady from New York.
    Ms. Buerkle. Thank you, Mr. Chairman.
    Mr. Mashburn, I want to go back to your testimony and the 
line of questioning with the chairman. I just have a quick 
question.
    Do you think if we talk about block grants for food 
assistance programs, there should be some requirement and 
attach work to it as we did with welfare programs?
    Mr. Mashburn. Certainly.
    Ms. Buerkle. Why do you think that?
    Mr. Mashburn. It provides an incentive for people. It 
doesn't rob their dignity from them; they work for some of 
their benefits. At the same time, it keeps people from abusing 
and gaming the system. As I mentioned earlier, some of the 
people don't enroll in the TANF program even though they are 
eligible; they enroll in the other welfare programs because 
they get more benefits from the other programs. It is because 
they don't want to have to go through the work requirements and 
all the other hassles, which is mentioned in the report, hassle 
of applying for the benefits and complying with the 
requirements.
    If it is too much hassle to do that, that you don't want to 
take TANF, the same situation being in food stamps, if you are 
not willing to go through the process to justify the fact that 
you need help from the taxpayers and your fellow citizens, and 
that is too much of a hassle, in my view, I don't believe you 
deserve food stamps to at least go through that process. Work 
requirements and other requirements like that, whether it is 
community service or something like that, ensures they are not 
getting free money from the government, they are giving 
something back in return. That does give them dignity as 
individuals.
    Ms. Buerkle. Thank you.
    Mr. Rector, I want to go back to the line of questioning 
with my colleague, Mr. Kucinich. You were starting to talk to 
us about a study done at Princeton. We got into the line of 
questioning about how we could not penalize. Going to the 
chairman's point, I think we want to make sure everyone gets 
what they need, but we also know there are always unintended 
consequences. You started to talk about how we can soften that 
so we don't discourage single women from getting married.
    Mr. Rector. First of all, let me clarify I am not talking 
about ripping food away from people in the middle of a 
recession. I think everything I was talking about here is long 
term and I think I have been very clear that most of these 
reforms would have to take place as the recession eases.
    You do find you are giving about 75 percent of the 
assistance that goes to children, means-tested assistance is 
going to single parent households. The welfare state basically 
exists to support single parenthood. That is an unintended 
consequence.
    If you had gone back to the 1960's, at that point, Daniel 
Patrick Moynihan warned us about this and everyone said, that 
is not going to happen. It was much worse than he ever dreamed 
it could be and it is now affecting basically the whole bottom 
third of the population. You are giving a lot of assistance now 
to able-bodied parents who don't work, you can begin to make 
the system more rational by requiring that all able-bodied 
recipients in these programs should work or prepare for work as 
a condition for getting aid. That would greatly rationalize the 
system.
    You can also provide somewhat greater assistance, less 
discrimination against married couples but let me talk about 
the consequence of that. In this Fragile Family Survey, we 
actually have data about the mother but we also have data about 
the father which is pretty unusual in social science because we 
are not very interested in fathers in this country.
    The reality is if you take these 40 percent of births out 
of wedlock, this is the road to poverty in the United States, 
70 to 75 percent of child poverty occurs in single parent 
families. If you took these mothers and actually married to the 
actual father of the child, not a hypothetical, not somebody I 
dreamed up, in two-thirds of the cases, the income the father 
would bring into that home would bring the family completely 
out of poverty. In many cases, the mother wouldn't even have to 
work. This is the strongest anti-poverty weapon in the United 
States today.
    When you survey these women, you find they are not hostile 
to marriage. In fact, they would like to get married but they 
actually have this pattern of saying, I want to have a child 
first, then I am going to start to look around for a husband, I 
will get married later on. We ought to begin to explain that if 
you want your child to not be poor, that set of decisionmaking 
is probably not the best route for you to go down.
    We ought to explain the single largest cause of child 
poverty in the United States is having a child without being 
married and they might want to look at other options to meet 
their own goal, not to meet my social values or your social 
values, but to actually meet their own personal goals of which 
marriage is a substantial part. Not being poor is also another 
substantial part.
    No where in the welfare system do we ever provide these at 
risk young people, both men and women, with this information. I 
think it is a national tragedy.
    Ms. Buerkle. Thank you. I yield back.
    Ms. Hamler-Fugitt. Mr. Chairman, if I could make a point of 
note to correct statements that both Mr. Rector and Mr. 
Mashburn made. There are work requirements for both SNAP and 
cash assistance. Let me be crystal clear, people who receive 
these benefits must work off those benefits and in my system, 
thousands of individuals come into a food pantry, a soup 
kitchen or a food bank every day and they work hard for those 
benefits.
    Mr. Jordan. Mr. Cummings.
    Mr. Cummings. Mr. Rector, I live among the people you just 
talked about and I think unless you are a woman, and unless you 
sit in a woman's place, I think you make some pretty strong 
statements talking about women not wanting to be married and 
making a choice to have a baby first. I am sitting here and I 
can't believe what I am hearing.
    Be that as it may, Ms. Hamler-Fugitt, one of the things we 
are trying to get at in this hearing is whether certain Federal 
programs are redundant or wasteful. We must strive to eliminate 
unnecessary duplication and streamline delivery benefits but I 
hope that the Republican idea of duplicative food assistance 
programs is not breakfast, lunch and dinner.
    Help us think about this the right way from the perspective 
of families and seniors who are eligible for these programs. I 
would like to ask you these questions. Are Ohio families you 
work with being overfed?
    Ms. Hamler-Fugitt. No, sir, they are not.
    Mr. Cummings. Can they take a budget cut as the Republican 
majority's budget imposes on food assistance they receive?
    Ms. Hamler-Fugitt. No, sir, they can't. With rising food 
and fuel costs, they are making choices about who eats tonight 
and who doesn't eat.
    Mr. Cummings. Do you deal with the school lunch program at 
all?
    Ms. Hamler-Fugitt. Yes, sir. We work all of the Federal 
nutrition programs through our Ohio Benefit Bank, ensuring that 
people know about the programs and helping to streamline the 
application process. I also want to say that this isn't only 
just the greatest generation, this is the next generation that 
we are losing their ability to not only for our greatest 
generation to live out their golden years with a little bit of 
dignity to be able to feed themselves, but we are sacrificing 
our future to allow hunger and malnutrition to exist at the 
rates they do in this country.
    Mr. Cummings. While rich folks get the tax breaks.
    Let me go to something, Ms. Hamler-Fugitt. The other day I 
was thinking about when I was a little boy. My mother and 
father had limited education, and by the way, they worked every 
day, Mr. Rector, every day, from sun up to sun down. My mother 
was a domestic for $7.50 and car fare. My father was a laborer.
    We used to get graham crackers and milk every morning. They 
worked hard and they were able to educate, on a domestic salary 
and a laborer's salary, seven children, one of whom is a Member 
of the Congress of the United States of America today. I think 
what Ms. Hamler-Fugitt is trying to say is that we have to make 
sure that we take care of our people and we take care of our 
children. If I did a rewind, if I took some of the positions 
that I guess you are taking, I wouldn't be here today, nor 
would my fellow brothers and sisters be achieving the things 
they achieve.
    Going back to you, Ms. Hamler-Fugitt, are they enrolled in 
multiple job training programs, these folks you see or is there 
a waiting list for job programs?
    Ms. Hamler-Fugitt. Yes. Again, with welfare reform and not 
only passage of the Personal Responsibility Work and 
Opportunity Reconciliation Act but the Work Force Investment 
Act, these were devolved and a lot of what has happened in the 
fragmented system is that they were not only devolved to the 
States but they were also devolved to the county level were a 
county-operated the system. It is the luck of the draw.
    Mr. Cummings. A lot of people are trying to train for jobs 
that aren't even there, is that right?
    Ms. Hamler-Fugitt. We are seeing record enrollment in 
community colleges where people are trying to get new skills 
and upgrade their skills, but again, there are limited slots 
available to these programs. I would like to speak to one in 
particular.
    Mr. Cummings. While you are talking about that, I want you 
to answer this. Do all homeless individuals have access to 
shelter and are they getting two beds for the night because of 
duplicative assistance?
    Ms. Hamler-Fugitt. As to the homelessness question, no. 
They do not have two beds and in fact, many now find 
themselves, if they are lucky, have a family or friend that has 
taken them in; we have seen household demographics increasing 
substantially because families have lost their homes. The 
shelters are full. In the State of Ohio, we have families who 
are sleeping in cars at roadside rests in the State of Ohio and 
I suspect it is the same in your State.
    Mr. Cummings. In the United States of America?
    Ms. Hamler-Fugitt. Yes, sir.
    Whether there are sufficient job training programs, there 
is a program where we are seeing more seniors than ever trying 
to re-enter the work force. Despite their efforts of working 
hard, thinking they had saved enough for their golden years, 
they are attempting to re-enter the work force.
    There is a program called the Ohio Senior Community 
Services Employment Program that is designed specifically to 
help older adults aged 55 and older to access meaningful job 
training, on the job training. There are a limited number of 
slots. I can tell you from firsthand experiences, we get calls 
every day from seniors begging to get into this program and it 
pays a modest $7.25 an hour.
    Mr. Cummings. Mr. Chairman, thank you for your courtesy. I 
see my time has expired.
    Mr. Jordan. Just one last question for Mr. Mashburn. If, in 
fact, social welfare spending for these 100-plus programs, we 
can't determine the exact number, it has steadily increased. 
That is true over the 40 some years. If it has always been 
increasing, why the terrible results? If all we have been doing 
is increasing money for this all along, doesn't it make sense 
to look at it differently and figure out if we can combine 
programs, make it work more efficiently?
    If we keep doing the same thing, we will keep spending the 
same amount of money and Ms. Hamler-Fugitt will have more 
people coming to her needing food and assistance because 
obviously it is not working the way it was supposed to.
    Mr. Mashburn. She talked about it devolving to the State 
level and the county level. If there are work requirements in 
the program in Ohio, it is probably because either the State or 
the county has required it.
    As far as the money spent, you keep spending the money 
unless you start giving people incentives and help them find 
jobs so they don't need the system. If you just support them in 
their status quo in the system, you don't train them and there 
is no penalty for staying, you will have the caseloads you have 
plus future caseloads as well which is why the spending keeps 
going up.
    Mr. Jordan. Ms. Dalton, has the GAO ever come forward with 
what you recommend? We know the problem, we don't know what we 
are spending, we know it is a lot and it has been $16 trillion 
over the last 50 years. We know we are spending a lot, we can't 
determine the number of programs, we don't know which are 
ultimately successful. We do know the food program is working 
in Ohio, but we don't know everywhere else what is going on. Is 
the GAO going to come forward with recommendations on what to 
do?
    Ms. Dalton. We are not going to make specific 
recommendations. The discussion here has shown that this is 
really a policy issue. We do talk about the need for good data, 
the need to rationalize the system. It is a system that in all 
the areas I discussed, it evolved over time with very good 
intentions but now we have 80 programs here, 40 programs there. 
There is a need to look at what do we want to achieve, who do 
we want to serve and what is the best way to achieve that. I 
think those are the three basic questions that need to be 
answered to design the programs to achieve those.
    Mr. Jordan. Ms. Buerkle has one last question and we will 
be done.
    Ms. Buerkle. For an organization that receives Federal 
dollars, is there no requirement that they track their results? 
Does anyone know the answer to that question?
    Mr. Rector. I do. Basically, for example, with job 
training, there are not requirements and when you do have a 
requirement, for example, to run a controlled experiment, the 
programs are not very effective. I would also say when you do 
have information in the political system, it tends to get 
disregarded.
    I would reference you all to a report called the 2009 
Annual Homeless Assessment Report which is prepared by HUD for 
the Congress. I will give you a copy of that. It says very 
different things than you just heard here and happens to be a 
survey of every homeless shelter in the United States conducted 
on a scientific basis.
    It shows actually no increase in the use of homeless 
shelters over the last 3 years and the average homeless shelter 
in the United States on any given night has a vacancy rate of 
10 percent. If we are not going to use information like that, I 
suspect we could cut these reports out and make things up.
    Mr. Kucinich. Would the gentlelady yield?
    Ms. Buerkle. Yes, sure.
    Mr. Kucinich. Just for a moment. May I ask the gentleman a 
question? Are you saying that there has been no increase in 
homelessness or just that there is no increase in the use of 
homeless shelters?
    Mr. Rector. The report shows neither increase which I also 
find surprising, but more importantly, it basically shows the 
level of homelessness is relatively low and that the homeless 
shelters on average on a continuing basis have vacancies.
    Ms. Buerkle. Thank you.
    Ms. Dalton, you appear to have a comment.
    Ms. Dalton. Yes. There are a couple points I want to make 
in terms of determining whether the programs are effective and 
what they are required to do.
    Most of the programs do have requirements to present some 
performance information. Whether or not it is the right 
information or whether it is integrated is oftentimes not done. 
There is a new law that the Congress passed last year called 
the Government Performance and Results Act, Modernization Act. 
That act is requiring improved performance reporting by Federal 
agencies and most importantly, it's targeting coordinated 
performance information trying to get information about 
programs that work together.
    It will be important to implement that act properly. I 
think that may at least start us on a path to some quality 
performance information.
    Ms. Buerkle. Thank you very much. I yield.
    Mr. Jordan. Let me thank our witnesses again for a good 
discussion.
    We are adjourned.
    [Whereupon, at 4:49 p.m., the subcommittee was adjourned.]
    [The supplemental prepared statement of Hon. Dennis J. 
Kucinich and additional information submitted for the hearing 
record follow:]

[GRAPHIC] [TIFF OMITTED] T0677.079

[GRAPHIC] [TIFF OMITTED] T0677.080

[GRAPHIC] [TIFF OMITTED] T0677.081

[GRAPHIC] [TIFF OMITTED] T0677.082

[GRAPHIC] [TIFF OMITTED] T0677.083

[GRAPHIC] [TIFF OMITTED] T0677.084

[GRAPHIC] [TIFF OMITTED] T0677.085

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
